                                                            ~ SECV
                                                          :)Ci
                                                            ~Q
                                                          W/IUS~~
                                                          \~ 1II1III~~<'
                                                            "'ISTiJ'

                                           SOOAL             SECURITY

                                               Office of the Inspector General
MEMORANDUM

Date:   May   16,   2001                                                                          ReferTo: ICN 31136-23-153

To:
        Larry G. Massanari
        Acting Commissioner
         of Social Security
From:

        Inspector General

Subject: Management        Advisory   Report    -Quick   Response          Activities   Summary      Report
        (A-13-01-11001)



        The attached Management Advisory Report provides you information on the Office of
        the Inspector General's Quick Response workload. These Quick Response reviews are
        short duration, time-sensitive projects that address requests from the Congress; Social
        Security Administration management; SSA customers and the general public; and, on
        occasion, other sources, for example, other Offices of Inspector General.

        This report is for informational purposes only and therefore does not contain any
        recommendations. If you have any questions or comments, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.


                                                                                                       ~


                                                                             James G. Huse, Jr.

        Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




     QUICK RESPONSE ACTVITIES
         SUMMARY REPORT


  May 2001        A-13-01-11001




  MANAGEMENT

ADVISORY REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                      ().".\. SEClj
                                                                                :'t..
                                                                     ~~
                                                                     \~ lllllIl~~
                                                                       'J\rlSTi-t-

                                                         SOCIAL          SECURITY
                                                         Office of tFie Inspector General
MEMORANDUM
Date
                      MAY      , 6 2001                                                                        Refer To'


To:                Larry G. Massanari
                   Acting Commissioner
                    of Social Security
From:
                   Inspector General

s       b.    t"   Management        Advisory   Report     -Quick   Response            Activities   Summary       Report
    u     Jec"     (A-13-01-11001)




                   This Managem~nt:Advisory Report provides you information on the Office of the
                   Inspector Gene'ral's (OIG) Quick Response (OR) workload. The report describes the
                   sources and types of OR activities, categorizes them in line with issues OIG identified to
                   be among the top 10 challenges facing the Social Security Administration (SSA)
                   management, and highlights their results and impact. We prepared this report for your
                   information and therefore it does not require you to take any action.

                   In June 1999, we established a OR Team within the Office of Audit. This Team is
                   charged with performing short-duration, time-sensitive projects that address requests
                   from the Congress; SSA management; SSA customers and the general public; and, on
                   occasion, other sources, for example, other GIGs. Unlike traditional audits and
                   evaluations, OR projects are not planned and scheduled in advance.

                   This report summarizes our OR activities from June 1999, when we began designating
                   workloads as OR activities, through September 2000.
Page 2 – Larry G. Massanari

SUMMARY OF QR ACTIVITIES
The QR workload is summarized by the sources of the work and common examples of
the work requested.

Sources of QR Activities




                                                               Congress - 18
                                                               SSA Management - 13
                                                               General Public - 8
                                                               Other - 4




Examples of QR Activities

Congress

Requests from Congress for information and/or action on behalf of constituents and
OIG’s views on specific program issues.

SSA Management

Requests from SSA for comments on draft products and miscellaneous requests, such
as providing audit assistance in an SSA investigation, or verifying cost savings
attributed to an employee suggestion.

General Public

Requests for OIG assistance from Social Security or Supplemental Security Income
applicants, beneficiaries, or their representatives. These requests usually concerned
perceived problems with specific claims or an Agency policy or procedure. Often, these
inquiries were sent to OIG after the requester unsuccessfully tried to resolve the matter
with SSA.
Page 3 – Larry G. Massanari

Other

Requests for information and/or action from such varied sources as the President’s
Council on Integrity and Efficiency, an SSA employee, and other OIGs.

QR Activities with Respect to SSA’s Management Challenges

We categorized our QR activities in line with the following issues the OIG identified to
be among the top 10 challenges facing SSA management.

•   Representative Payee
•   Service to the Public
•   Identity Theft

                       SSA provides benefits to the most vulnerable members of
Representative         society—the young, the elderly, and the disabled. The Social
    Payee              Security Act grants SSA the authority to appoint representative
                       payees (Rep Payee) for beneficiaries judged incapable of
managing or directing the management of their benefits. Rep Payees (organizations or
individuals) receive and manage payments on behalf of these beneficiaries. SSA has
the responsibility to ensure these payments are used for the beneficiaries’ benefit.

Detecting, investigating, auditing, and deterring Rep Payee fraud, as well as conducting
reviews aimed at improving internal controls and program integrity, have been a major
focus in OIG, and the most significant source of work for the QR Team.

Rep Payee misuse received significant attention from the Congress, the OIG, and the
media. Exemplifying this was OIG’s involvement in the investigation and prosecution of
the case against the Aurora Foundation, Inc., a high-volume, fee-for-service,
organizational Rep Payee. Our investigation revealed that Aurora embezzled over
$300,000 from disabled persons for whom it was a Rep Payee.

The QR Team also provided information as requested by members of congress on
SSA’s Rep Payee program. Our QR work in this area included the following.

•	 Responding to congressional inquiries concerning several aspects of SSA’s Rep
   Payee program. We provided Congress comments and suggestions concerning
   SSA’s

        -   on-site review procedures,
        -   bonding requirements,

        -   responsiveness to complaints of Rep Payee misuse,

        -   monitoring program,

        -   effectiveness in retrieving Rep Payee reports,

        -   screening and selection of potential Rep Payees, and

Page 4 – Larry G. Massanari

      -	 follow-up actions for Rep Payees who do not complete annual accountability
         reports.

•	 Participating, at SSA’s request, in two on-site reviews of organizational Rep Payees
   (fee-for-service). The reviews resulted in restitution of misused funds and insights
   about preventing similar situations.

•	 Providing, at SSA’s request, comments to SSA’s review guide for on-site visits of
   organizational Rep Payees. Our comments included suggestions to assist SSA in
   detecting Rep Payees who may be misusing benefits.

•	 Responding to a congressional inquiry, on behalf of a constituent, regarding a Rep
   Payee. We provided the Congressman with SSA’s policy for addressing the issue
   concerning the constituent.

                 Providing quality service to the public remains a critical
                 management issue facing SSA. SSA recognizes there are
Service to the
                 several significant issues that affect its service delivery. One is
   Public
                 the complexity of the programs SSA administers. Another is
                 the steady reduction in staffing since 1982 resulting in an aging
                 and work-laden workforce.

SSA’s workloads will continue to increase as baby boomers reach retirement
age. As reported by the Social Security Advisory Board, the result has been,
and will continue to be, uneven service. Persons filing for retirement or survivors
benefits are likely to be satisfied with the service provided. However, individuals
with complicated cases may encounter problems. As workloads increase, the
dimensions of SSA’s problems can be expected to grow if left unattended, and
the public will face crowded reception areas, long waiting times, inadequate
telephone service, and reduced quality of work.

We received several inquiries from the Congress and the public that indicate problems
with SSA’s service to the public. Examples of the types of requests we received in this
area follow.

•	 Responding to a beneficiary complaint about the handling of her case, alleging
   illegal and unethical treatment.

•	 Responding to a volunteer advocate’s allegation that SSA had mistreated a
   beneficiary and had sent the beneficiary numerous and conflicting letters.

•	 Responding to a citizen who disputed the information on his earnings record and
   wanted information about the trust funds in general.
•	 Responding to a congressional inquiry on behalf of a constituent that had received
   multiple, confusing, and contradictory notices from SSA.
Page 5-        Larry G. Massanari




    Ide~tity         Another major challenge facing SSA management is the growing
      Theft          problem of identity theft. The problem affects SSA because identity
                     theft often involves misusing the Social Security number (SSN) in
                     perpetrating crimes. Originally, the SSN's sole purpose was to
provide a method for SSA to accurately record each U.S. worker's earnings. Despite
this narrowly drawn purpose, use of the SSN as a general identifier in record systems
eventuatly grew. The SSN has been adopted for numerous other purposes so that,
today, it is the single most widely used identifier for Federal and State governments as
well as the private sector. Our OR activities pertaining to this issue include the
following.

.   Reviewing general questions about the improper use of the SSN referred to us
    through congressional sources.
                   .."""
    Congressionallnquiry            on behalf      of a constituent      asking    for advice   regarding   potential
    problems      with   identity   theft   and misuse      of an SSN.       As requested,      we explained
    policies    and procedures         regarding     obtaining    a new SSN.


.   Congressional inquiry on behalf of a constituent asking about the privacy of her SSN
    and the security of the SSN issuance process.

We will continue to address time-sensitive requests for GIG assistance from all our
customers.




                                                                 James      G.    Huse,   Jr.
Appendix

                                                                           Appendix A

OIG Contacts and Staff Acknowledgments
OIG Contacts

      Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365
      Jim Klein, Audit Manager, (410) 965-9739

Acknowledgments

In addition to those named above:

      Gerald L. Hockstein, Program Analyst
      Kim Beauchamp, Writer-Editor


For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-13-01-11001.
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
